              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report

Continuity of Operations at
Bonneville Power Administration




DOE/IG-0781                             November 2007
                               Department of Energy
                                    Washington, DC 20585

                                    November 6 , 2007



MEMORANDUM FOR THE ADMINISTRATOR, BONNEVILLE POWER
                 ADMNISTRATION
                              -2L
FROM:                             d   ~;;KL&L~,;/
                           Grego H. Friedman
                           Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Continuity of Operations
                           at Bonneville Power Administration"

BACKGROUND

'lhe Bonneville Power Administration (Bonneville) markets and delivers wholesale
hydroelectric power. Currently, Bonneville provides about 40 percent of the power sold
in the Pacific Northwest region of the U.S. and it operates over three-fourths of the
region's high-voltage transmission facilities.

In the event of a major disruption to its nonnal operations, Bonneville must be prepared
to continue its essential functions, particularly its power scheduling, tra~lsmission
scheduling, and system operations. In this regard, Bonneville is required to follow
Federal Preparedness Circular 65 (FPC 65), as prescribed by the Department of
Homeland Security's Federal Emergency Management Agency. Under FPC 65, agencies
are to develop viable contingency plans. The Circular also provides a number of key
steps that agencies should take for continuity of operations. Specifically, it recommends
that each agency: ( I ) prepare alternate operating facilities; (2) establish a devolution plan
to be implemented if it is incapable of performing essential functions from either its
prlmary or alternate facility; and (3) test the capabilities of its continuity of operations
program. The objective of the audit was to determine whether Bonrleville had a viable
continuity of operations capability for its essential functions.

RESULTS OF AUDIT

We concluded that Bonneville's continuity of operations capability was not fully
compliant with FPC 65 for all of its essential futlctions. Specifically:

        Bonneville's primary and alternate facilities for power scheduling were
        interdependent as well as in close proximity and, therefore, were s ~ ~ b j eto
                                                                                      c t the
        same hazards; and,

        Bonneville's plan to recover transmission scheduling from disruptions to its
        primary automated system relied in part on a manual process, rather than a fully
        automated system as required by FPC 65.
Although initiatives were underway to reduce the possibility of power and transmission
scheduling interruptions, additional actions are needed by Bonneville to improve
continuity of operations planning. In addition, Bonneville did not have specific
devolution plans for power scheduling, transmission scheduling, and system operations in
the event that both primary and alternate facilities became inoperable. Finally,
Bonneville could not provide us with sufficient evidence that the capabilities of its
continuity of operations were periodically and fully tested or that lessons learned were
identified and implemented.

Bonneville did not have a consistent and sustained continuity of operations planning
process. Since 2002, Bonneville has attempted at least three continuity of operations
planning efforts. In July 2007, under its most recent initiative, Bonneville established a
charter for its Business Resilience Project that combined continuity of operations
planning with emergency management, crisis management, and asset riianagement
planning. The charter for this project indicated that Bonneville will revise its approach
and tinieline for continuity of operations planning and have continuity of operations plans
in place for selected functions by March 2008. The reconimcndations in the attached
report were provided to assist Bonneville in this and related efforts.

MANAGEMENT REACTION

Management concurred with the recommendations and indicated that it is either currently
iniplementing or will soon implement the report's recommendations. Management
emphasized that its current critical continuity of operations capability is operational, but
improvenients are needed. Management's comments are included in their entirety in
Appendix 3.

Attachment

cc:    Deputy Secretary
       Under Secretary of Encrgy
       Chief of Staff
       Team Leader, Audit Liaison Team, CF-1.2
       Bonneville Power Administration Liaison Office
       Audit Liaison, Bonneville Power Administration
REPORT ON CONTINUITY OF OPERATIONS AT BONNEVILLE POWER
ADMINISTRATION


TABLE OF
CONTENTS


  Continuity of Operations at Bonneville Power Administration

  Details of Finding .........................................................................................................................                1

  Recommendations                   .......................................................................................................................   4

  Comments .....................................................................................................................................              5


  Appendices

   1 . Objective, Scope, and Methodology ................................................................................                                     ~J
   2. Prior Audit Reports ..............................................................................................................                      8

   3. Management Comments ......................................................................................................                              9
CONTINUITY OF OPERATIONS AT BONNEVILLE POWER
ADMINISTRATION

Continuity of   Bonneville Power Administration (Bonneville) does not have a
Operations      viable contitluity of operations (COOP) capability as defined by
                Federal Preparedness Circular 65 (FPC 6 5 ) for all of its essential
                functions. Specifically, Bonneville:

                        Needed to improve its alternate operating capabilities
                        for power scheduling and transmission scheduling;

                        Did not have specific devolution plans for power
                        scheduling, transmission scheduling, and system
                        operations; and,

                        Could not always provide evidence that its COOP
                        capabilities were periodically tested or that lessons
                        learned were identified and implemented.

                                 Alternate Operating Strategies

                Bonneville needed to improve its alternate operating capabilities
                for power scheduling and transmission scheduling. For example,
                its primary and alternate facilities for power scheduling were
                interdependent and in close proximity. Specifically, the
                interdependent computer servers that support the power scheduling
                function's automated systems at the altemate power scheduling
                facility were dispersed between the primary and alternate facilities.
                Therefore, if an emergency rendered either of the facilities
                inoperable, power scheduling may be unable to continue
                operations. Further, its alternate operating facility was in close
                proximity and subject to some of the same hazards as the primary
                facility. For example, Bonneville personnel indicated that a major
                earthquake is one of its most significant risks that could impact
                both facilities.

                Additionally, Bonneville's COOP approach for recovering
                transmission scheduling relied in part on a manual process if the
                use of its primary automated system was disrupted during an
                emergency situation. Bonneville pointed out that the tools it
                currently has in place provide the basic continuity of operations for
                critical functions. However, we noted the use of a fully automated
                alternate operating system would increase its ability to continue
                transmission scheduling operations. Further, the manual part of
                the process did not meet the standard of FPC 65 that altemate
                operating facilities must provide computer equipment, software,
                and other automated data processing equipment necessary to carry
                out essential functions.


Page 1                                                            Details of Finding
         Bonneville noted that it has a number of information technology
         initiatives underway that will reduce the possibility of power and
         transmission scheduling interruptions. Specifically, for power
         scheduling Bonneville has two information technology projects
         planned that, once implemented, would reduce the risk of both
         primary and alternate facilities being rendered inoperable.
         Bonneville personnel indicated that the projects should be
         advanced enough by January 2008 to be able to rely on them in an
         emergency, although the estimated completion date for one of the
         projects is not until January 2009. Also, Bonneville is in the
         process of modernizing its transmission scheduling system to an
         Internet-based application that would allow transmission
         scheduling from any location with Internet access and eliminate
         reliance on a manual backup. Although the anticipated date of
         completion was November 2007, transmission officials have said
         that two schedule slippages that have occurred will postpone the
         completion date. Moreover, once the information technology
         initiatives are completed, Bonneville will need to update its COOP
         procedures to address the new capabilities to ensure that
         employees know the logistics of what to do and where to go if an
         emergency situation renders the primary facility unavailable.

                                  Devolution Plans

         Further, Bonneville's power scheduling, transmission scheduling,
         and system operations functions have not developed specific plans
         for devolving operations to another site in the event that both the
         primary and alternate facilities are rendered inoperable. Although
         Bonneville management stated that it does have current devolution
         plans, our review showed that these are beginning strategies rather
         than specific plans for devolution. For example, FPC 65 requires
         that devolution plans contain specific information such as a roster
         identifying the fully equipped and trained personnel at the
         designated devolution site that would have authority to perform
         essential functions and activities. However, the beginning
         strategies did not contain such information. Bonneville
         management acknowledged that these plans need to be improved
         to comply with FPC 65. Con~pletingspecific devolutions plans is
         espccially important given the current situation in which primary
         and alternate facilities for power scheduling remain
         interdependent.




Page 2                                                  Details of Finding
                                          Periodic Testing

                Bonneville could not always provide evidence that COOP
                capabilities for power scheduling and transn~issionscheduling
                were periodically tested, deficiencies identified and lessons learned
                implemented. According to FPC 65, agencies must plan, conduct,
                and document periodic tests and identify deficicncics.
                Deficiencies and actions taken to correct them must also be
                documented. Formal testing procedures would ensure that tests are
                conducted on a regular basis, weaknesses are identified, corrective
                actioris are taken, and lessons learned are retained for the future.
                Although power and transmission scheduling personnel stated that
                their alternate operating strategies are tested, they could not always
                provide us with sufficient documentation to verify the existence or
                effectiveness of such tests. We judgmentally selected a number of
                transmission schedulers and contacted them to confirm that tests
                were conducted and were effective. However, three of thc eight
                transmission schedulers who responded indicated that they had not
                participated in any of the tests and three others had not participated
                for several years. Bonneville provided documentation of power
                scheduling employees participating in testing of the alternative
                facility, but was unable to document similar attendance by
                transmission scheduling employees.

Process for     After five years of effort, Bonneville had not developed a
COOP Planning   consistent process for COOP planning. Since 2002, Bonneville
                has attempted at least three separate COOP planning efforts.

                For example:

                         In 2004, Bonneville directed its business functions, such
                         as power and transmission scheduling, to develop COOP
                         plans which Bonneville told us were based on templates
                         provided by the Department of Homeland Security and
                         the Fcderal Emergency Management Agency. Most
                         business functions completed draft COOP plans by
                         September 2005; however, Bonneville management did
                         not adopt these plans because they found the individual
                         plans were inconsistent in quality and lacked
                         standardization that precluded integration of the plans
                         into a Bonneville-wide plan.

                         In early 2006, senior executives re-energized the COOP
                         process for the purpose of creating comprehensive COOP
                         plans. Although thc 2006 effort focused on nieeting the




Page 3                                                           Details of Finding
                           requirements of FPC 65 and included a project plan with
                           a milestone for completing plans by September 2007,
                           executive management believed that the effort did not
                           support its vision of a broader Pacific Northwest regional
                           approach to COOP planning.

                           Between December 2006 and March 2007, Bonneville
                           initiated a Business Resilience Project that combined
                           COOP planning with emergency management, crisis
                           management, and asset management planning into what
                           Bonneville told us will be a fully integrated planning
                           process. However, Bonneville did not approve a charter
                           for its Business Resilience Project until July 2007.
                           Regarding COOP planning, the charter indicated that
                           based on the results of a business impact analysis,
                           Bonneville will revise its approach and timeline for
                           COOP planning in October 2007 and have COOP plans
                           for selected functions by March 2008.

                  These planning efforts underscore the need for Bonneville to
                  develop a more consistent planning process for consistency of
                  operations.

Need for          By taking further actions to achieve a viable COOP capability,
Preparedness      Bonneville would improve its ability to continue all essential
                  operations after an emergency that results in a significant
                  disruption to its operations. Although it pointed out that the
                  loss of certain functions does not mean the loss of its ability to
                  service customers, b e concluded that continuation of essential
                  operations is important since Bonneville provides a significant
                  amount of electric power to the Pacific Northwest region. In
                  fact, a Bonneville official told us that it is likely that a large
                  scale emergency would affect other regional utilities as well as
                  Bonneville. The possibility of a region-wide impact
                  underscores the importance of Bonneville being prepared to
                  take a leadership role in restoring power and transmission
                  services and in minimizing disruption to the region.


RECOMMENDATIONS   In order for Bonneville to have assurance that it can continue all
                  essential operations after an emergency, we recommend that the
                  Bonneville Administrator ensure that Bonneville:

                       1. Finalizes an approach to COOP planning that includes
                          milestones for developing and approving a Bonneville-
                          wide COOP plan.



Page 4                                                            Recommendations
                 2. Develops and tnaintains viable business function COOP
                    plans in accordance with FPC 65 that include:

                          a) Strategies that ensure independent alternate
                             operating facilities which are not subject to the
                             same hazards as the primary facilities;

                          b) Devolution plans to ensure COOP in the event
                             that both the primary and alternate facilities are
                             rendered inoperable; and,

                          c) Fonnal testing of the alternate operating facilities
                             and devolution plans, including documenting the
                             results and implementing corrective actions when
                             necessary.

                 3. Integrates the business function COOP plans into a
                    Bonneville-wide COOP plan that meets FPC 65
                    requirements.

                 4. Ensures timely completion of its information technology
                    initiatives for power and transmission scheduling systems
                    and that the new capabilities are reflected in business
                    function COOP plans.


MANAGEMENT   Management concurred with the recommendations and
REACTION     indicated that it is either currently implementing or will soon
             implement the recommendations to ensure a viable COOP
             capability for critical functions at Bonneville. Bonneville pointed
             out that it currently has workable elements of COOP measures.
             However, Bonneville acknowledged that improvements are needed
             in its COOP measures. Bonneville management also indicated that
             it has a number of statutory and regulatory obligations, and if a
             conflict arose between those obligations and FPC 65, Bonneville
             would comply with its statutory and regulatory obligations.
             Additionally, Bonneville wanted to emphasize that its current
             critical functions COOP capability is operational, but needs to be
             improved.

             To develop an integrated and comprehensive set of COOP
             measures to address the deficiencies and implement the
             recommendations in the report, Bonneville has initiated a strategic
             approach to COOP planning called the Business Resilience
             Program, which has been final since July 2007. Bonneville stated
             that by October 2007, it will update implementation details for its



Page 5                                                              Comments
           approach. Bonneville has started its COOP planning for its most
           critical functions and COOP planning for its lower priority
           functions will follow. Specifically, COOP plans for its most
           critical functions will be completed by the end of fiscal year 2008
           and lower priority functions COOP plans will be completed in
           fiscal year 2009. These plans will be integrated into an industry
           standard COOP planning database. In addition, infortnation
           technology initiatives for transmission scheduling and power
           scheduling are underway and will be completed at the end of fiscal
           year 2008 and January 2009, respectively.

AUDITOR    Management comments are generally responsive to our
COMMENTS   recommendations and its planned corrective actions, when fully
           implemented, will help Bonneville strengthen its COOP planning.
           While the July 2007 charter was a positive step in COOP planning
           and identified the approach that Bonneville will take, it did not
           contain specific and measurable activities and milestones to ensure
           the program's success.




Page 6                                                           Comments
Appendix I

0B.IECTlVE    The objective of this audit was to determine whether the
              Bonneville Power Administration (Bonneville) has a viable
              continuity of operations (COOP) capability for its essential
              functions.

SCOPE         The audit was performed from November 2006 to August 2007.
              The scope of the audit included COOP efforts for Bonneville's
              power scheduling, transmission scheduling, and system operations
              functions.

METHODOLOGY   To accomplish the audit objective, we:
                  a   Reviewed Bonneville's COOP planning efforts;

                  a   Reviewed laws, regulations, policies, and procedurcs for
                      COOP;

                  a   Interviewed personnel responsible for COOP; and,

                      Reviewed prior Office of Inspector General and
                      Government Accountability Office reports, and other
                      related reports.

              We conducted this performance audit in accordance with gcneral ly
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objective. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. The audit included tests
              of controls and compliance with laws and regulations related to
              Bonneville's COOP. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. Also, we examined the
              establishment of perfomlance measures in accordance with the
              Government Performance and Results Act of 1993, as it related to
              the audit objective. We concluded that Bonneville had not
              established specific performance measures to ensure COOP in an
              emergency. However, our recommendations, when fully
              implemented, will assist Bonneville in ensuring the continuation of
              essential functions in emergency situations. Finally, we did not
              rely on computer processed data; therefore, we did not conduct
              reliability assessments on the data.

              We held an exit conference with Bonneville officials on
              October 10. 2007.



Page 7                                    Objective, Scope, and Methodology
Appendix 2

                                 PRIOR AUDIT REPORTS

     The Department of E n e r ~ ' Use
                                     s of the Str~ztegicPetroleum Reserve in Response to
     Hurricunes Kutrinu und Rita (DOE/IG-0747, December 2006). The report identified an
     opportunity to provide greater assurance that Strategic Petroleum Reserve (Reserve)
     operations could continue in future emergency situations. Specifically, the audit report
     stated that as a result of hurricanes Katrina and Rita, the Reserve's business recovery
     capabilities were impaired when mission-essential computer networks at both the primary
     and alternate sites were rendered inoperable. The Reserve's primary and secondary sites
     are located within 55 miles of each other. Katrina's far-reaching impact proved that the
     proximity of the alternate site to the primary facilities was less than optimal. The report
     also noted that the Reserve had not performed an all-hazards risk assessment when trying
     to determine the location of its alternate operating facility, as required by Federal
     Preparedness Circular 65.

     The Deportment's Continuity Plunning and Emergency Preparedness (DOE/IG-065 7,
     August 2004). The report found that five sites did not develop comprehensive plans to
     continue essential functions during an emergency and had not corrected a number of
     weaknesses identified during prior emergency preparedness exercises. Specifically, the
     sites had not fully identified essential functions or alternate operating facilities in case of
     an emergency. Additionally, the Department of Energy (Department) did not have
     specific requirements for sites to validate the effectiveness of corrective actions
     addressing recognized preparedness weaknesses or to share complex-wide lessons
     learned about common problems. The Department had recently created the Corrective
     Action Management Program as a means to validate corrective actions identified during
     emergency preparedness testing. Also, the Department had recently developed the
     Society for Effective Lessons Learned Sharing to centrally track and share lessons
     learned from emergency preparedness test exercises. As a result of these findings, the
     Department may face increased risks to operations, employees, and surrounding
     communities during an emergency situation.




Page 8                                                                       Prior Audit Reports
Appendix 3

 DOE F 19?5 t3e   k!ec::v,t>,,'F,,!,;:A!q~:ovc(J Ljy Fur!',>t , f q t ! 0 4   ;:I   ?I106
 (.I8 89:
 United States Government                                                                                    Department of Energy
                                                                                                    I%onncvillcI'owcr Administration
 memorandum
 REPLY TO
  AlTNOF      lG-3'7 (A0711N057)

 SUBJECT:     H o ~ ~ ~ i c \ PO\VCI.
                              i l l c ~ \ ( l ~ l l i ~ l i s ~ ~Co11inic111s
                                                                 . ; r ~ i o ~ i on [lie 1C Discusslo11 Ill-aft I<cport on lllc "Audit o l
              ('oillirli~ity01 Opcr;~iionsar Uonncv~llcI'cnvcr Admin~srrai~on"                     diitcd /\i~girbt20, 7007

        TO.   (icorgc ('olI:~r~l./\ssist:1111I I I I > ' ~ I ~ I . C'Iener;~Ifor Pcriorniiince Audit5
              Ol'licc o l rhc 1nsl)ector Gcnc~al

              Tl~ir~lh    yo11 1'01 alloi\ing the Son~lc.\~illc Power Aclmiriistraiio~ltBPA or Borirlr\,illc) i o comnicnl
              ( I I I youi- auclit ol' BPA's Conirnuiry o f Oper;~rior,sPlanriing (C001'). BPA accepts the IG's
              r c c o m ~ ~ ~ c n d a r i o131'
                                           ~ iA                    in~plcrncntingor \\ill so011i~nl,lcrllcntthe I(;
                                               s . is cill~e~~currcntly
              r.ccommcndntions to ensure ;I viitble (:OOP cap:ibility for critical functio~is;it BPA.

              Ho\\c\.er. UI'.A, 1)) "1;1tuto1yclirccii\.c. IIILISI pro\,irlc po\vcr and rrirns~nissionscr\,ices to its
              C L I S I ~ I ~ C~' II .;II~ I~ ~ ~ s i ~ ~ 111;1111icr e ~ s - l while
                                                                                i h ~ ilnplementing a nunibcr of organic stittntcs (including
              the 1 3 o 1 ~ 1 ~ c ~      Project
                                             i l l r ,Icr. rhc Federal <:olumhin K i \ ~ c ~ ~ T ~ - a ~ ~ s Sybteln    ~ n i s s i oAct.
                                                                                                                                      r l and the
              I>itcit'rc NorrIl\\.csr I<lcctr~cI'o\vc~ Plitrin~ngi ~ n dC:onscr\:atiorl Acr), I-egulatory guidailcc (fiEI<C,
              NEICC. imcl M'E('(.' 1.cg111;~tions).                        intcr.nariona1 iscnlics, rcgional ol)cr.a~iorlsa~rccincnts.;lnd
              IX-LICICI~I ~ l t i l i ~I >yI . ~ I L . I ~ c c . In 11ie event of it conflict I>ct\vccrlFPC 65 and thc t\dminist~.aror's
              sta~uiory~.csl>c~~~sil~ilities.                     UI'A \vill conil~lywith its s t ; ~ ( ~ ~ tand
                                                                                                             o r y r-cgulatory obligations.

              More sl)cc~llcally.HPA's c u ~ . ~ - crit~cal        c ~ l ( f ~ ~ r l c i ~COOP
                                                                                           o n cupahility is opcratiorlal. I>ut nccds lo
              he irnpl-ovccl. DI'A has initiated the Husincss Resilience Prugl.ani to dcvclup an intcgl-atcd and
              comp~ulic~lsivc                 scr 01' COOP n~eas~u-es,    ;IS \\ell as relatcd clncrgcncy, crisis, ancl assct
              ~ni~rlagcriicrlt            plans to address those def~cicrlcicsand implement the I(i recomlnendations. HI'A
              11;ls st;rrtecl w1tI1(lie IIIC)SI cr~ticalfurictic>~ls,           all of \vhich arc r-clalcd to sustaining sale, rcliablc,
              ~ I I I C I ; I ~ C ~ L I L IIr.:rr1~1nlssion
                                            IL'             ;]nd generation. COOP planning for lo\i.er priority fu~lcriorlswill
              1'c)lluu i l l FY 2008 and FY 2009. 111 t h ~ sproccss. BPA \\:ill idcntil'y any ;tspccts of busi~icss
              rcsilicncc that ~ ~ c to              c dhe strengthened ancl schedule the p~.ojects.



              IJI'A ayrccs \virI~Ilic ICi Report recommc~idations.Wc have ttdcletl some clarific;ttions and timclincs
              for a mo1.c coml>lcrc itndcrstanding of the 131'.4 appl-o~rchlo COOI' planniny.

              I < e c o ~ n r ~ ~ e r ~ dI.a tI'irlali~e
                                               i o ~ ~ arl approach to C 0 0 1 ' planning t l ~ a inclutles
                                                                                                  t         milestones I'or
              tlevelol,ing ;inti al)provi~lg;I I l o ~ ~ n c ~ i l l e - \ bCOOI'
                                                                            ide   plall.

              I1 ['A's .;l~.;~tcg~c       "appl-oath" 10 ('00['               ~>larlninghas bccn Irnal si~lceJill y 2007. UI'A has c~)nsolidatccl
              (~'001'     o l a r l ~ l i ~w~~gt hcnlcrgcllc!8 rnar1agcr1~crlr.crihi, 11iirn~1;cmcnt.anti asscl management planning.
              l'll~so\cr;rll al)l>ro;tcli is called l3usiriess Kcsiliencr and is i~ltc~lclcil                     to proclucc ;r11 intcgrit~cclanit
              co~~llxchcnsi\,c           sc~   o t plans, c~lIi;r~lcc~nrnts.         and skills lo allo\\, HPA to ct'l'ccrivcly rcspolld to
              dis~.lrl'ri\~e   c\.cnts aftccrirlg. UI'A. 11scustomers and stakcholdcr-s i l l the I'acilic Noi-tl~\\.cst                   region.
              I r n l ~ l c r ~ t c ~ ~clcta~ls
                                           l ; ~ t i o \~\ . r~l l hc i~(?d:trcdrn 0 c t o l ~ 12007.
                                                                                                 -    I'ollo\\~ingo ~ r rLlus~r~css
                                                                                                                                  Inilx~cti\nalysis




Page 9                                                                                                          Management Comments
Appendix 3 (Continued)




          (El:\ I \\ I1ii.h has iclcntrl'i~dIW.\'\ "core, outp~its." 111cI l i g i ~ ~~riol.lr!
                                                                                          ~ ~ ~ t pr.ocl~rctsand scr\ ~ c c the           s aycnc!
          rnlrht s u s l a ~ ndul-in: ancl I o I I o \ \ ing an cmcrscnc.!. all ot'\\I)rih ,\I-c~-cl;~tccl
                                                                                                        ro sust;iinrng <ale. I.~II:II>Ic.
               atlccluatc ti.ansnilsiion and gcncr.:ikroll. As par-t o l rhc El.\. BI'.A \\ i l l ~clcntil'ythe i'i'rri~.alI'unirrons
          :LI~LI
          th,~tsublain thcse corc outpul.\. C'OOl' p1:rns for thcse li~ghcnr~ r . ~ ~ r l t y - c ' r i t i~cUi ~I Il C I I U\ I\ r~I l ~ he
          cc~rnl>lc.tcd115' khc cncl ol 1;) 2005. \\ ith sccoild pl.icll.it! t'unctlorl COOP p1:ins to I'ollo\\. iluriny
          I..) 2000.

          I<cco~l~lllcndatio~~     2. I ) c \ c l o ~and maintain 1 ial)le I)c~sint.asfunction COOI' [)l:trls in accortliince
           it11 IiI'C' 65 t l ~ a include:
          \\                      t

          ( a ) Strategies Illat ensure intlcpentlent alternate operating facilities which are not s~il~ject
                                                                                                          to Ihe
          same hazards as the prinlary facilities:
          (I)) 1)evolution plans to ensure COOILin the event that botli tllc priniary and alternate lacilitics
          arc rc~ltlerctlinopera1)lc: and
          ( c ) Forrxlal testing of thc nltcrnatc ooerating facilities and devolutio~lplans. inclutling
          docunlcnting the res~rltsand inlplcrllc~ltingcorrcctii-eactions when necessar!.

          RP.-\ lntcnds to h a \ c \ iablc huhincss i'unction ('OOP l>l:~rl.;in :ic.cordancc \vitl~( a ) ilncl I I J ) : ~ h o \ cI>! the
          cricl 01' 1:). 2008 I'or ir.; niosl cl-lrrsal t'i~ncrlons,with orl1cr.l ro lollo\\. Addirional cllangcs in s!\rems
          ; I I I C ~PI.OCCSSCS, ~ n c l ~ ~ c ilornn;ll
                                                 i ~ i y resting dcscribcd In ( c ) a h o \ c . \\ill hc irnl>Ieinenked o \ c r a fe\\ months
          ro \ c \ c ~ - ayciuh.
                            l      d c p c n d ~ n gt)n iizcni! pr.ioi.~lics.~ml)lcrncntatic)ritime and costs.

          :\.; pc)intctl O L I I i n              111'                                          s . in 1 1 1 ~1G 1-cport I'111Cli1lgl;.U1'.4 d i ) ~ s~ U I ~ S C I I I I !
                                                           cornnlcnt\ rn tllc . - \ p ~ c n d ~and
          h;1\ L.   \\   O I - ~ ; I I ~ I C ~ I C I I I ~ I I I . ; or' i;i
                                                                   ). 11)). aid ( c ) ;L~o\.c.  hut ; ~ i k n ~ \ \ . l e d gt l~l ~' sl ti ~ n l ) r o \ c ~ ~ ~3r.r
                                                                                                                                                                  c n tnrzded
                                                                                                                                                                        s

          I<ecotll~llc~ldatio~i
                              3. Integrates the I)usincss function COOP plsns into a Iionncvillc-\r ide C001'
          plan that nleets FI'C 65 rccluiremcnts.

          I3onnc\ 111~'s  C'OOf' plans \ \ i l l be ~ntcgl'arcdro ensure rhar 11s prrorit> "corc oi~tputs"are rcbilicnr.
                                                                                      ~ srerii). an industry srandard COOP
          UI'A 112s procu~.edI.I>Kl'S (121\lngDlsaatcr R c c o ~ c r yP l ; i n n ~ nS!
          pl;11lning tor11 to assist Irl thrs rntesr.atio11. All busrncsj funcllo~lC O O P plans \rill IJC inrc;ratcd ;rnd
          Iodycd in rhc I.DRPS dxra Ixise \\ hich i i cxpcctcd to lull!. Inect FPC 65 r c ~ l i l i l r ~ r l e r1%
                                                                                                                  l t tllcc'i~dof
          1-1.700s.

          Keco~l~rllcndatioti 1. Ensures tinlcly co~nl~lction of its infonnation tech~lologyinitiatives for
          p w c r anti transnlission scllcduling systcn~sant1 that the neb\ cnl~abiliticsarc rctlectcd in
          I~usirlcssfunction (:001' ~)lans.

          Intc-)rnliitron rcctinol~v! init~;itr\-cs!(>I- Po\\.cr Schcd~ilingand Transmission Schcd~ilillgS!.strm.; are
          ~inclcr-\\a!. 'l'hc r.criic~tcsltc Intclncl sihcduling ca~>:ll~rlrry.              lociitsd in \qinnc;lllc~lis. 31%. \ \ i l l 1,c
          I               I t     1   I   ~ 01 I      0         '1-hc r.crnotc alrcr'narc I';lciliric.; s r ~ cf o r critical supl~ortt'linc.tic)n\
          ~ n ~ . l u c l 1'01-ccabtiny
                          ~r~g             and sL.ticdullng at ~ h Munro  c       Contr.ol C'cnicr. ('\ICC') in Sl~oh:une.\V:\. I.;
                              c l Sinisliecl I>! .I;II~LI;LI.! 2009.
          ~ ~ \ p c ~ ~10r cl>c




Page 10                                                                                                                           Management Comments
Appendix 3 (Continued)




          BPA's r.eylonsc. [he Appendix, and olhcr docurncntation can hc found on the HPA weh\ire at
          h~lp\\www. bpa.~ov.co~.porale\abuutbpa\audits.




          Nalional Relations Manager



          LC.

          Mark Mickclscn   -   L)OL. Office of Inspcclur Gcncsal




Page 11                                                                       Management Corr~ments
                                                                    IG Report No. DOEIIG-0781

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report'?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                      http://www.ig.energv.~ov

       Your comments would be appreciated and can be provided on the Customer Response Fornl
                                      attached to the report.
